No.19-51
INTHE

hprttttt C!tnurt nf tlft Jbtitth &tatts
BEN BRANCH, et
V.

al.,

Petitioners,
et al.,
Respondents.

MASSACHUSETTS DEPARTMENT OF LABOR RELATIONS,

ON PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME JUDICIAL COURT OF MASSACHUSETTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, Mark Matuschak, a member of the
bar of this Court, certify that the accompanying Brief for Pioneer Institute as Amicus
Curiae Supporting Petitioners contains 5,514 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.l(d).
Executed on August 7, 2019.

MARKMATIJSCHAK

~

Counsel of Record

WILMER CUTLER PICKERING
HALE AND DORR LLP

60 State Street
Boston, MA 02109
(617) 526-6000
mark.matuschak@wilmerhale.com

